NO. 20-886
IN THE

Supreme Court of the
United States
THELMA G. MCCOY,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify that a
copy of the Brief of Amici Curiae Consumer Bankruptcy
and Student Loan Academics in Support of Petitioner
was sent via by priority mail, postage prepaid to the
U.S. Supreme Court on February 2, 2021. Additionally,
a copy of the Brief was sent to all counsel via priority
mail postage prepaid, as well as by transmitting a
digital copy via electronic mail.
Attorneys for Petitioner
Daniel Adam Rubens
Orrick, Herrington & Sutcliffe LLP
51 W 52nd Street
New York, NY 10019
drubens@orrick.com
212-506-3679

Attorneys for Respondent
Elizabeth B. Prelogar Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Attorney for Amicus Curiae National Consumer
Bankruptcy Rights Center
Tara Twomey, Counsel of Record
National Consumer Bankruptcy Rights Center
1501 The Alameda
San Jose, CA 93921
tara.twomey@comcast.net
831-229-0256

/s/ Carter C. White
Counsel of Record

